OFFICE OF INSPECTOR GENERAL


AUDIT OF USAID/AFGHANISTAN’S
RECONSTRUCTION OF THE
KANDAHAR-HERAT HIGHWAY
UNDER THE REHABILITATION
OF ECONOMIC FACILITIES AND
SERVICES (REFS) PROGRAM
AUDIT REPORT NO. 5-306-06-005-P
May 18, 2006




Manila, Philippines
Office of Inspector General


May 18, 2006

MEMORANDUM

TO:                  USAID/Afghanistan Director, Alonzo L. Fulgham

FROM:                RIG/Manila, Catherine M. Trujillo /s/

SUBJECT:             Audit of USAID/Afghanistan’s Reconstruction of the Kandahar-Herat Highway
                     Under the Rehabilitation of Economic Facilities and Services (REFS) Program
                     (Audit Report No. 5-306-06-005-P)


This memorandum transmits our final report on the subject audit. In finalizing the report, we
considered your comments to the draft report and included the comments (without attachments) in
Appendix II.

This report contains one recommendation to improve USAID/Afghanistan’s Reconstruction of the
Kandahar-Herat Highway under the REFS Program. Based on your comments, we consider that
final action has been taken on the recommendation upon issuance of this report.

I want to thank you and your staff for the cooperation and courtesy extended to us during the
audit.




U.S. Agency for International Development
                        th
PNB Financial Center, 8 Floor
Roxas Blvd, 1308 Pasay City
Manila, Philippines
www.usaid.gov
CONTENTS
Summary of Results ....................................................................................................... 1

Background ..................................................................................................................... 2

Audit Objective .................................................................................................................. 3

Audit Finding ................................................................................................................... 4

Were USAID/Afghanistan’s Kandahar-Herat highway
reconstruction activities on schedule to achieve planned
outputs?

     Some Highway Reconstruction
     Activities Suspended................................................................................................... 6

Evaluation of Management Comments ......................................................................... 9

Appendix I – Scope and Methodology ........................................................................ 10

Appendix II – Management Comments ....................................................................... 12
SUMMARY OF RESULTS
The Regional Inspector General/Manila conducted this audit to determine whether
USAID/Afghanistan’s Kandahar-Herat highway reconstruction activities were on
schedule to achieve planned outputs. (See page 3.)

The audit found that USAID/Afghanistan’s Kandahar-Herat highway reconstruction
activities were on schedule to achieve planned outputs, except for 24 kilometers of road
work. (See page 4.)

USAID/Afghanistan’s goal was to have all 326 kilometers of the Kandahar-Herat
highway paved with three layers of asphalt by December 31, 2005. As of the time of our
fieldwork (September 26 to October 19, 2005), reconstruction activities were on
schedule to have 302 of 326 kilometers (92.6 percent) paved with three layers of asphalt
by the due date. (See pages 4-5.) Although the remaining 24 kilometers were also to
have been completed by December 31, 2005, they were not finished on time because of
funding shortages, which the Mission could have addressed sooner. (See page 6.)

This report made one recommendation intended to improve USAID/Afghanistan’s
reconstruction efforts. (See page 8.) Based on USAID/Afghanistan’s comments, we
consider that final action has been taken on the recommendation upon the issuance of
this report. (See page 9.) USAID/Afghanistan’s comments are included (without
attachments) as Appendix II to this report. (See page 12.)




                                                                                      1
BACKGROUND
The Rehabilitation of Economic Facilities and Services (REFS) program continues to be
the largest and most visible program being implemented by USAID/Afghanistan. Its
purpose is to promote economic recovery and political stability by repairing infrastructure
in Afghanistan. In September 2002, USAID contracted The Louis Berger Group, Inc.
(LBGI) to implement the program, including road reconstruction and other infrastructure
activities. The contract’s original completion date was December 31, 2005, and its
estimated cost was $155 million. At the time of this audit, the contract’s completion date
was December 31, 2006, and its estimated cost was $665 million. However, during our
audit fieldwork, USAID/Afghanistan submitted a request to extend the contract to
July 31, 2007, and to increase its cost to $730 million.

The signature infrastructure project under the REFS is the reconstruction of
Afghanistan’s major east-west highway, which runs from Kabul to Herat and is
approximately 1,207 kilometers long. Under USAID/Afghanistan’s oversight, LBGI
substantially completed the Kabul-Kandahar portion of the highway in October 2004,
except for one section that was completed in April 2005.

Like the Kabul-Kandahar portion, reconstruction of the Kandahar-Herat portion of the
east-west highway is a multinational effort. The Kandahar-Herat highway—about 557
kilometers long—was divided into five sections for reconstruction purposes. The
governments of Japan and Saudi Arabia are funding the reconstruction of Sections 1
and 2, respectively, which have a combined length of about 231 kilometers; the United
States of America, through USAID, is funding the reconstruction of Sections 3, 4, and 5,
which have a combined length of about 326 kilometers. This division of responsibilities
is shown in the map below.




                                                                       Map showing the
                                                                       five sections of the
                                                                       Kandahar-Herat
                                                                       highway and the
                                                                       countries     funding
                                                                       their reconstruction.




                                                                                           2
As it did for USAID’s portion of the Kabul-Kandahar highway, LBGI is reconstructing
USAID’s sections of the Kandahar-Herat highway. To accomplish its task, LBGI
subcontracted three construction firms; each firm is responsible for reconstructing one of
the three USAID sections of the highway.

At USAID/Afghanistan, the Office of Infrastructure, Engineering and Energy is
responsible for overseeing the work of LBGI and its subcontractors.         As of
October 1, 2005, the reconstruction of the Kandahar-Herat highway was estimated to
cost $162 million.

AUDIT OBJECTIVE

The Regional Inspector General/Manila conducted this audit as part of its fiscal year
2005 annual audit plan to answer the following question:

•   Were USAID/Afghanistan’s Kandahar-Herat highway reconstruction activities on
    schedule to achieve planned outputs?

Appendix I contains a discussion of the audit’s scope and methodology.




                                                                                        3
AUDIT FINDING
Except for 24 kilometers of road work, USAID/Afghanistan’s Kandahar-Herat highway
reconstruction activities were on schedule to achieve planned outputs.

USAID/Afghanistan manages a sizable program to advance Afghanistan’s recovery to a
stage where transformational development progress is possible. In doing so, it faces a
number of challenges: deteriorating security, difficult living and working conditions, and
frequent staff turnover. Despite these challenges, the Mission continues to make
progress.

Reconstruction of USAID’s sections of the Kandahar-Herat highway included a number
of planned outputs such as:

•   Demining the highway right-of-way.
•   Removing the old road surface.
•   Surveying and designing the highway.
•   Mobilizing camp sites and asphalt-making plants.
•   Constructing the new highway, including culverts, causeways, and bridges.

Most of the outputs had to be and were completed before construction of the new
highway could begin. Of the remaining planned outputs, we considered the construction
of the new road surface, which consisted principally of applying three layers of asphalt
so that the highway could be open to traffic, to be the key output for answering the audit
objective. It was the output most used by the Mission and its implementing partners to
track progress.




                                                               OIG    photograph     of   a
                                                               segment of Section 4 of the
                                                               Kandahar-Herat highway in
                                                               Herat, Afghanistan that had
                                                               been paved with three layers
                                                               of asphalt. (October 2005)




USAID/Afghanistan’s goal was to have all 326 kilometers of the USAID-financed portion
of the Kandahar-Herat highway paved with three layers of asphalt by
December 31, 2005.     As of the time of our fieldwork (September 26 to




                                                                                         4
October 19, 2005), reconstruction activities were on schedule to have 302 of the 326
kilometers (92.6 percent) paved with three layers of asphalt by December 31, 2005.

For each section of the Kandahar-Herat highway being reconstructed by USAID, the
following chart compares the planned number of kilometers to be paved with three layers
of asphalt to reported progress by layer of asphalt, as of October 1, 2005.


                                            Kandahar-Herat Paving Progress
                                                (As of October 1, 2005)

              0.00
                             49.25
 Section 5
                                         58.46
                                                                           101.00

                                                     73.86
                                                         79.06
 Section 4
                                                             79.72
                                                                     100.00

                     29.65
                                                 98.07
 Section 3
                                                         111.40
                                                               125.00
 Kilometers
         0.00          20.00             40.00        60.00             80.00       100.00     120.00       140.00

        Planned per Layer            Completed- 1st Layer       Completed- 2nd Layer         Completed- 3rd Layer



Our conclusion that the paving of the Kandahar-Herat highway was on schedule was
made considering the physical progress noted during our 3-day site visit compared to
completion dates in project agreements, the contractor’s implementation plan, and
construction schedules. Assessing progress also included comparing reported progress
in the chart above to what was noted in our site visit and to other supporting evidence,
comparing contractor paving rates to the Mission’s estimated progress rates taking into
account the time remaining to complete paving, and discussions with engineers and
other personnel from USAID/Afghanistan and The Louis Berger Group, Inc. (LBGI).

Although 302 kilometers of the Kandahar-Herat highway were on schedule to be
completed by December 31, 2005, USAID/Afghanistan did not promptly request
additional funds to address funding shortages in the Rehabilitation of Economic Facilities
and Services (REFS) program. The delay in requesting additional funds contributed to
the suspension of work on the remaining 24 kilometers of highway, and the planned date
to complete the work is now October 2006. This issue is discussed in more detail in the
following section of this report.




                                                                                                                     5
Some Highway Reconstruction
Activities Suspended
 Summary: USAID guidance states that an operating unit and its strategic objective
 teams should prudently plan, monitor, and manage the financial aspects of a program
 throughout the life of the strategic objective. However, USAID/Afghanistan did not
 promptly request additional funds to address the funding shortages affecting
 completion of the Kandahar-Herat highway. The Mission’s delay in requesting
 additional funds contributed to work on the last 24 kilometers of the Kandahar-Herat
 highway being suspended. Because constant staff turnover was a factor in this delay,
 the Mission needs to formally document, track, and promptly resolve significant issues
 uncovered in its own monitoring efforts that could affect the progress of its
 reconstruction activities.

USAID’s Automated Directives System Chapter 202.3.7 states that an operating unit and
its strategic objective teams are responsible for managing the resources made available
to them so that planned outputs and results are achieved in a cost-effective and timely
manner, in accordance with applicable regulatory requirements. These responsibilities
include prudently planning, monitoring, and managing the financial aspects of a program
throughout the life of the strategic objective because the financial position of a strategic
objective and its activities is critically important to achieving desired results. Another
responsibility is formulating resource requests. If pipelines are not adequate to finance
projected expenditures, there is a risk that new funds will not be available on time to
avoid a curtailing or even a shutdown of activity implementation. It is, therefore, critical
that an operating unit and its strategic objective teams make careful projections and
monitor them closely so adequate resources are available when needed.

USAID/Afghanistan did not promptly request additional funds to address funding shortages
in the REFS program, thus affecting the completion of the Kandahar-Herat highway.
According to e-mail correspondence, a Mission official responsible for the
Kandahar-Herat highway reconstruction informed Mission management as early as
December 2004 that the REFS contract’s $665 million ceiling would not allow for the
completion of all the work that was ongoing or scheduled to be done. In May 2005, in
response to the Mission official’s e-mail reminder about the funding shortages, Mission
management began considering such options as cutting back on work to address the
funding problem. But, it was not until October 10, 2005, that USAID/Afghanistan issued
an action memorandum requesting the Deputy Assistant Administrator for the Bureau for
Asia and the Near East to approve increasing the ceiling of the REFS contract by $65
million (from $665 million to $730 million) to address the need for more funding and to
extend the contract completion date from December 31, 2006, to July 31, 2007.

The Mission’s action memorandum explained that the request was not a proposal to
increase the ceiling in order to award new work; rather, the additional $65 million (a 9.8
percent increase over the contract ceiling of $665 million) was needed to cover cost
growth in the projects already subcontracted by LBGI. About 43 percent of the increase
was attributable to cost growth in the Kandahar-Herat highway. According to the
memorandum, a detailed assessment of the old road and bridges could not be done
when LBGI’s contract was awarded because demining had not yet occurred.
Consequently, costs increased when changes or variations in conditions were found as
road reconstruction progressed—conditions that were exacerbated by the extreme


                                                                                          6
winter of 2004-2005. The memorandum also disclosed that nearly $8.7 million of the
proposed ceiling increase was directly attributable to increased security costs
necessitated by the deteriorating security situation in the country. Over 60 percent of
this increase was specific to the Kandahar-Herat highway. Increasing fuel costs and the
declining value of the dollar were also cited.

On October 4, 2005, work was suspended on the last 24 kilometers of Section 5 of the
highway leading into Herat, including 4 bridges. Section 5’s completion date was also
extended from December 31, 2005, to October 17, 2006. 1 Although these actions were
taken because of the funding shortages, in our opinion, the Mission’s taking ten months
to request additional funding also contributed to the need to suspend work on the
Kandahar-Herat highway reconstruction activities.




                                                                       U.S.     Army  Corps     of
                                                                       Engineers’ photograph of
                                                                       the segment of Section 5 of
                                                                       the Kandahar-Herat highway
                                                                       in Herat, Afghanistan on
                                                                       which work was suspended.
                                                                       (April 2005)




With respect to the impact on commerce, it should be pointed out that the suspension
did not halt traffic into Herat. Traffic continued to flow along the last 24 kilometers of
Section 5, but at a slow pace due to the deteriorated condition of the old highway. We
do not know if other REFS program activities were suspended because of funding
shortages as our audit covered only the Kandahar-Herat highway reconstruction
activities.

USAID/Afghanistan’s program manager for road reconstruction cited staff turnover as
the reason for the Mission’s delayed response to the funding shortages. He explained
that the Mission suffered from constant turnover at all levels. For example, in the
summer of 2005, the following personnel joined the U.S. mission in Afghanistan: a new
ambassador; deputy chief of mission; USAID mission director; program officer; director
for the Office of Infrastructure, Engineering and Energy (OIEE); and other OIEE staff.
These officials and staff were involved in the decision-making process regarding raising
the ceiling of the REFS contract, and had to be briefed on the contract’s history, the
options considered, and the necessity for the additional amount requested. He added
that another contributing factor to the Mission’s delayed response was the time it took
USAID/Washington to approve the contract’s previous ceiling increase, which was
initiated in May 2004 and signed in April 2005.

1
  Paving of the last 24 kilometers of Section 5 and rehabilitation of three bridges are scheduled to
be completed by May 2006; work on the fourth bridge is scheduled to be completed in October
2006.


                                                                                                  7
USAID/Afghanistan operates in a challenging environment. It manages a large,
ever-increasing portfolio with limited staffing. Terrorist attacks are a daily threat to all its
activities throughout the country. Living conditions are harsh and staff turnover is
frequent because tours of duty are limited to one year. 2

The above factors, particularly the constant staff turnover, make it important that
USAID/Afghanistan have formal procedures to document and track significant issues it
uncovers that could affect the progress of its reconstruction efforts. Such procedures
would ensure that the issues are resolved promptly. The REFS program is USAID’s
largest in Afghanistan, and it carries out many activities important to the rebuilding of the
country. Given its size, visibility and importance, USAID/Afghanistan should have
requested additional funding early enough to avoid having to suspend work on the last
24 kilometers of the Kandahar-Herat highway. Consequently, we are making the
following recommendation:

     Recommendation No. 1: We recommend that USAID/Afghanistan develop
     and implement procedures with milestones to document, track and promptly
     resolve significant issues uncovered in its own monitoring efforts that could
     affect the progress of its reconstruction activities.




2
   As in the previous year, these are issues that the Mission reported as material weaknesses in
its Federal Managers’ Financial Integrity Act report for fiscal year 2005.


                                                                                              8
EVALUATION OF
MANAGEMENT COMMENTS
USAID/Afghanistan concurred with the contents of this report and the recommendation.
In its comments, the Mission provided evidence that it had developed and is
implementing procedures to document, track and promptly resolve significant issues
uncovered in its own monitoring efforts that could affect the progress of its reconstruction
activities. Based on our review of the evidence provided by the Mission, we considered
that final action has been taken on the recommendation upon the issuance of this report.

The Mission’s written comments are included (without attachments) as Appendix II to
this report.




                                                                                          9
                                                                                APPENDIX I



SCOPE AND METHODOLOGY
Scope

The Regional Inspector General/Manila conducted this audit in accordance with
generally accepted government auditing standards. The audit was designed to
determine whether USAID/Afghanistan’s Kandahar-Herat highway reconstruction
activities were on schedule to achieve planned outputs.

The audit was performed at USAID/Afghanistan and at the offices of The Louis Berger
Group, Inc.—the primary contractor reconstructing the Kandahar-Herat highway—and it
covered reconstruction activities from June 6, 2004, through October 1, 2005. Fieldwork
was conducted from September 26 to October 19, 2005, and included site visits to
various points between Kandahar and Herat to observe reconstruction activities. As of
September 30, 2005, USAID records showed payments of $69.2 million for work on the
Kandahar-Herat highway.

As part of the audit, we assessed the significant internal controls used by
USAID/Afghanistan to monitor reconstruction of the Kandahar-Herat highway. The
assessment included controls related to whether the Mission (1) conducted and
documented site visits to evaluate progress and monitor quality, (2) required and approved
an implementation plan, (3) reviewed and approved the primary contractor’s proposed
changes to its scope of work, (4) reviewed progress reports submitted by the primary
contractor, and (5) compared the primary contractor’s reported progress to planned
progress and the Mission’s own evaluations of progress. We also reviewed the Mission’s
Federal Managers’ Financial Integrity Act report for fiscal year 2005 for any issues affecting
the reconstruction of the Kandahar-Herat highway. Finally, we obtained and reviewed any
relevant prior audit reports.

Methodology

To answer the audit objective, we interviewed officials and staff from
USAID/Afghanistan, the primary contractor, and the U.S. Army Corps of Engineers. In
addition, we reviewed:

•   Documentation such as, but not limited to, the primary contractor’s implementation
    plan, progress reports, site visit and other monitoring reports, and financial reports.

•   Contracts and subcontracts and their modifications.

•   Job orders and their modifications.

•   Laws, regulations, and USAID policy and guidance related to the audit objective.

We did not set a materiality threshold for this audit as the nature of the audit did not lend
itself to the establishment of such a threshold. However, we designed our audit to




                                                                                           10
address potential concerns such as inadequate oversight over reconstruction activities
and lack of awareness of existing problems along the Kandahar-Herat highway.




                                                                                   11
                                                                 APPENDIX II



MANAGEMENT COMMENTS

             USAID AFGHANISTAN
                            FROM THE AMERICAN PEOPLE




                                                  May 16, 2006

MEMORANDUM

To:               Catherine M. Trujillo, RIG/Manila

From:             Alonzo Fulgham/s/, Mission Director

Subject:          USAID/Afghanistan – Response to Draft Audit
                  Report – Reconstruction of the Kandahar–Herat
                  Highway under the Rehabilitation of Economic
                  Facilities and Services (REFS) Program, Audit
                  Report dated April 6, 2006. (Report No. 5-306-
                  06-XXX-P)

We appreciate the opportunity to respond to the subject draft
report. The Mission concurs with the draft report and has
accordingly taken corrective action to address the recommendation
below:

        Recommendation No. 1: We recommend that
        USAID/Afghanistan develop and implement procedures
        with milestones to document, track and promptly
        resolve significant issues uncovered in its own
        monitoring efforts that could affect the progress of
        its reconstruction activities.

        USAID/Afghanistan Response: USAID’s Automated Directives
        System (ADS) Chapter 202.3.7 states that an operating unit
        and its strategic objective teams are responsible for
        managing the resources made available to them so that
        planned outputs and results are achieved in a cost-
        effective and timely manner, in accordance with applicable
        regulatory requirements. To better meet this ADS section
        and address the audit recommendation above
        USAID/Afghanistan developed procedures and issued a Mission
        Notice that implements those procedures with milestones to
        document, track and promptly resolve significant issues
        uncovered in our monitoring efforts that could affect the



                                                                         12
progress of our reconstruction activities. The Mission
Notice complements the ADS by defining the frequency of
reporting of any significant issues uncovered in our
monitoring.

RECOMMENDATION:

Based on the above, USAID/Afghanistan requests closure of
the recommendation upon issuance of the report since
corrective action has being taken.

Thank you.




                                                            13
U.S. Agency for International Development
        Office of Inspector General
        1300 Pennsylvania Ave, NW
          Washington, DC 20523
            Tel: (202) 712-1150
            Fax: (202) 216-3047
            www.usaid.gov/oig
